No. 19A1
IN THE

Supreme Court of the United States
NINA M. BOTTINI, FRANCIS A. BOTTINI, JR., AND
BERNATE TICINO TRUST DATED MARCH 2, 2009, TRUST “3”,
Petitioners,
v.
CITY OF SAN DIEGO, A MUNICIPAL CORPORATION, AND CITY COUNCIL OF THE
CITY OF SAN DIEGO,
Respondents.

PROOF OF SERVICE

RICHARD A. EPSTEIN
Counsel of Record
800 North Michigan Avenue
# 3502
Chicago, Illinois 60611
(312) 702-9563
richard.epstein@nyu.edu
ALBERT Y. CHANG
YURY A. KOLESNIKOV
BOTTINI & BOTTINI, INC.
7817 Ivanhoe Avenue, Suite 102
La Jolla, California 92037
(858) 914-2001
Counsel for Petitioners

1
The undersigned certifies that on July 29, 2019, he caused to be served An
Application to the Honorable Elena Kagan for a Second Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the Court of Appeal of California,
by mailing the same in envelopes bearing postage fully prepaid, addressed as
follows:
Jana Mickova Will, Esq.
Deputy City Attorney
Office of the San Diego City Attorney
1200 Third Avenue, Suite 1100
San Diego, California 92101
M. Travis Phelps, Esq.
Chief Deputy City Attorney
Office of the San Diego City Attorney
1200 Third Avenue, Suite 1100
San Diego, California 92101
Dated: July 29, 2019
s/ Richard A. Epstein

RICHARD A. EPSTEIN

